                                                              June 9, 2003




MEMORANDUM TO:                     William D. Travers
                                   Executive Director for Operations


                                   Jesse L. Funches
                                   Chief Financial Officer



FROM:                              Stephen D. Dingbaum/RA/
                                   Assistant Inspector General For Audits


SUBJECT:                           MEMORANDUM REPORT: REVIEW OF NRC=S PURCHASE
                                   ORDER PROCESSING (OIG-03-A-17)



The Office of the Inspector General (OIG) is conducting an audit of the Nuclear Regulatory
Commission=s (NRC=s) contract administration practices. During the audit, OIG reviewed NRC=s
purchase order1 processing. This report is being issued before the overall report so that NRC
officials can take immediate action to improve purchase order processing. Specifically, NRC
needs to maintain their current efforts to develop a single integrated E-Procurement system, which
includes purchase order processing, rather than continuing to use overlapping stand-alone
systems.


The Division of Contracts (Contracts) and the Division of Financial Services (Accounting) have
non-integrated computer systems and agency program offices have their own office-specific
invoice tracking systems, all of which require entry of the same or similar information. This
condition exists because NRC has not developed an integrated system that meets the needs of
Contracts, Accounting, and the program offices. Contracts and Accounting recognized this
problem and both organizations are currently working together to develop an integrated


        1
            Per Federal Acquisition Regulation 2.101, a Purchase order, when issued by the Government, means an
offer by the Government to buy supplies or services, including construction and research and development, upon
specified terms and conditions, using simplified acquisition procedures.
E-Procurement System. In addition, action has been initiated to make process improvements in
the commercial payments area. Close intra-agency coordination on these initiatives will
significantly contribute to the success of the initiatives as well as:

       $      Foster implementation of the Government Paperwork Elimination Act,
       $      Support the President=s E-Government initiatives,
       $      Result in net savings of more than $338,000 over a five-year period, and
       $      Facilitate compliance with recent Joint Financial Management Improvement
              Program Acquisition/Financial Systems Interface Requirements.

BACKGROUND

       The agency uses purchase orders as one means to acquire a broad range of products,
       supplies, and services, including, but not limited to, technical assistance and research in
       nuclear fields, information technology, facility management, and administrative support.

       Purchase orders are generally used for purchases between $2,500 and $100,000 and are
       included in Contract=s purchase order tracking system. This system also tracks General
       Services Administration schedule orders under which purchase orders are issued that
       occasionally exceed $1,000,000. During FY 2002, NRC executed procurement actions
       totaling $96.2 million, which included 1,119 purchase orders valued at approximately $26
       million. The following charts show a breakdown of NRC=s FY 2002 procurement actions
       and purchase orders.




                                                 2
                                                              FY 2002 Procurement Actions
                                                                   (Dollars in Millions)


                                            Purchase Orders
                                                                                                          Cost Type Contracts
                                 $26.0 (27.0%)
                                                                                                            $24.2 (25.2%)




                                                                                                              Fixed Price Contracts
                                                  Task Orders                                                       $17.9 (18.7%)
                                             $21.6 (22.4%)



                                                                                    Other Contracts
                                                                                   $6.5 (6.7%)

Total Procurement Actions - $96.2 Million
Excluding DOE Agreements




                                                                FY 2002 Purchase Orders
                                                                           $0 - $5,000      659 POs - $1,049,000      (4.0%)


                                                                                                 $5,001 - $10,000       144 POs - $1,069,000 (4.1%)



                                                                                                           $10,001 - $25,000          168 POs - $2,648,000
                                                                                                                                             (10.2%)


          $1,000,001 - $10,000,000

   3 POs - $8,311,000
          (31.9%)




                                                                                                                         $25,001 - $100,000

                                                                                                                        114 POs - $6,230,000
                                                                                                                              (23.9%)




                       $100,001 - $1,000,000
                 31 POs - $6,730,000
                      (25.9%)                                              Numbers in boxes represent the range of values of purchase orders (POs).
                                                                           Total Purchase Orders: 1,119 - $26,037,000




                                                                    3
PURPOSE

    The objectives of our audit of NRC=s contract administration practices are to (1) review the
    effectiveness of management controls, and (2) identify additional economies and
    efficiencies within NRC=s contract administration program. Specifically, OIG reviewed
    management controls concerning purchase order processing from initiation of a request
    through invoice payment.

RESULTS

           Management Controls are Generally Adequate

    Management controls over purchase order processing are generally adequate. Review of
    a statistical sample of 134 purchase orders totaling approximately $17 million
    (65 percent of the FY 2002 purchase order total) revealed that transactions were properly
    authorized and supported by adequate documentation. Tests for compliance with the
    Prompt Payment Act disclosed only two minor instances of noncompliance out of the
    sample of 134 purchase orders. Specifically, two data entry errors resulted in two late
    payments that should have included interest.

           Economies and Efficiencies are Possible

    Contracts and Accounting have non-integrated computer systems and agency program
    offices have their own office-specific invoice tracking systems, all of which require entry of
    the same or similar information. This condition exists because NRC has not developed an
    integrated system that meets the needs of Contracts, Accounting, and the program offices.
     Contracts and Accounting recognized this problem and both organizations are currently
    working together to develop an integrated E-Procurement System. In addition, action has
    been initiated to make process improvements in the commercial payments area.

           Current Invoice Tracking Systems are Inefficient

    Current invoice tracking systems used by Contracts, Accounting, and program offices are
    inefficient and burdensome. To track invoices, Contracts uses the Contract and Payment
    System, Accounting uses the Federal Financial System-Department of the Interior, and the
    program offices primarily use their own invoice tracking systems. A detailed matrix,
    prepared by Contracts, revealed the existence of twelve pieces of information for each
    invoice that must be manually entered into the tracking systems maintained by each of the
    above mentioned offices. This re-entry of the same or similar information is clearly not in
    the agency=s best interest. The matrix follows:




                                              4
INVOICE TRACKING

        Data Elements           Federal Financial       Contract and    Program Office
                                    System               Payment       Invoice Tracking
                                                          System           Systems

Voucher or number               X                   X                  X

Voucher or invoice date         X                   X                  X

Contract or Purchase Order #    X                   X                  X

Date Received                   X                   X                  X

Billing Period                  X                   X                  X

To Project Officer              X                   X                  X

From Project Officer            X                   X                  X
(due date included)

To Contract Specialist          X                   X                  X
(due date included)

From Contract Specialist        X                   X                  X
(due date included)

To Division of Accounting and   X                   X                  X
Finance
(due date included)

Date of Payment                 X                   X                  X
(due date included)

Amount withheld                 X                   X                  X




                                             5
         The above matrix shows some of the duplication that exists. Contracts also pointed out
         that current systems include duplicate entry of the same or similar data associated with
         pre-award information, as well as award and contract administration information.
         Contracts and Accounting have recognized the need for process improvements and have
         initiated separate actions to eliminate the duplication.

                  Division of Contracts Proposed E-Procurement System

         On March 17, 2003, an Information Technology Project Proposal Screening Form for the
         E-Procurement System was submitted to the Chief Information Officer. Submission of the
         screening proposal is the first step in the procurement of most Information Technology
         projects. Contracts proposes to purchase a commercially available E-Procurement system
         that will interface with the Federal Financial System-Department of the Interior. The
         proposed system is intended to streamline and simplify internal business processes among
         NRC program, procurement, and finance offices by integrating the requisition, acquisition,
         payment, workflow, and reporting functions. Since the proposed system significantly
         impacts Contracts as well as Accounting, close coordination between these offices will
         significantly contribute to the success of this initiative and (1) foster implementation of the
         Government Paperwork Elimination Act,
         (2) support the President=s E-Government initiatives, (3) result in net savings of more than
         $338,000 over a five-year period, and (4) facilitate compliance with recent Joint Financial
         Management Improvement Program Acquisition/Financial Systems Interface
         Requirements.

                  (1) Implements Government Paperwork Elimination Act

         The proposed E-Procurement System implements the Government Paperwork Elimination
         Act, which directs agencies to move to electronic document management from creation to
         retirement.

                  (2) Supports the President=s E-Government Initiatives

         Expanded E-Government is one of the five Government-wide initiatives included in the
         President=s Management Agenda. E-Government initiatives aim to improve the
         management of information technology, simplify business processes, and unify information
         flows across business lines. These initiatives are designed to achieve beneficial results
         which include:

                  $        Reducing Government operating costs by simplifying and unifying2 agency
                           work processes, information and work flow, and

                  $        Enabling information to be collected on-line once and reused, rather than
                           being collected many times.

         2
            In the federal government, financial systems are often automated separately from procurement systems,
significantly increasing costs and minimizing potential savings.

                                                          6
The proposed E-Procurement system supports the President=s E-Government initiatives by
enabling NRC to directly access Government-wide shared acquisition services and
databases (e.g., the Business Partner Network, Federal Procurement Data Systems-Next
Generation, and Past Performance Information Retrieval System), which have been
created under the President=s Integrated Acquisition Environment Initiative.

       (3) Results in Net Savings

The proposed E-Procurement system is expected to result in net savings of more than
$338,000 over a five-year period. The proposal states that the estimated cost of the
project phase for the E-Procurement System is between $250,000 and $499,000. This
compares favorably with the proposal=s estimated cost savings of $837,850 applicable to
Contracts only. (Savings of $837,850 minus costs of $499,000 equals net savings of
$338,850.) Had potential cost savings attributable to Accounting and program offices
been considered, the anticipated net savings would be even greater.

       (4) Facilitates Compliance with Joint Financial Management Improvement
       Program Requirements

The Joint Financial Management Improvement Program Acquisition/Financial Systems
Interface Requirements, dated June 2002, identifies existing government-wide statutory
and regulatory requirements associated with the mutual functional interfaces between
finance and acquisition. Agencies must use the prescribed functional requirements, in
addition to agency-unique mission requirements, in planning their financial management
and acquisition systems improvement projects. The document further requires that
financial management systems support the partnership between acquisition and financial
managers, and ensure the integrity of information for decision-making and measuring
performance.

Since the E-Procurement System is intended to integrate the requisition, acquisition,
payment, workflow, and reporting functions, it is essential that Contracts and Accounting
coordinate to give full consideration to the above referenced requirements in the
procurement of the system.

       Accounting=s Streamlining Initiative

An Accounting official indicated that the office is exploring avenues for streamlining
processes in the travel and commercial payments areas. Accordingly, Accounting is
developing a statement of work to obtain the services of a contractor who will be engaged
under a cross-servicing agreement with the Department of Interior/National Business
Center. One area of interest to Accounting is workload management, an area which
Contracts included in its proposed E-Procurement system.

       Close Coordination Between Contracts and Accounting is Critical

The Information Technology Project Proposal Screening Form for the
                                         7
         E-Procurement System states in part:

                  [Division of Contracts] DC has contacted the [Office of the Chief Information
                  Officer] OCIO and the [Division of Accounting and Finance3] DAF and has learned
                  that they are not planning any workflow or financial management enhancements
                  which would be supplementary, complementary, or closely-related to DC=s
                  proposed project. DC is not aware of any applicable ongoing, supplementary, or
                  complementary projects planned or scheduled by the program offices.

         This statement indicates that there is significant potential for overlap between Contracts’
         and Accounting’s respective initiatives. Therefore, OIG contacted representatives from
         both offices and recommended that they closely coordinate their efforts. Additionally, OIG
         met with a representative from the Office of the Chief Information Officer and discussed the
         importance of ensuring that there is no overlap or duplication between the respective
         initiatives proposed by Contracts and Accounting.

         While Contracts is presently further ahead than Accounting in their respective streamlining
         initiatives, close coordination between Contracts and Accounting is critical to the success
         of these initiatives. Moreover, such coordination is necessary to avoid duplication
         between the initiatives that would result in unnecessary expense.

RECOMMENDATION

         We recommend that the Executive Director for Operations and the Chief Financial Officer:

         1.       Install an E-Procurement system that incorporates the Joint Financial Management
                  Improvement Program Acquisition/Financial Systems Interface Requirements,
                  dated June 2002.

         In accordance with the attached instructions, please provide information on actions taken
         or planned on the recommendation by July 9, 2003. Actions taken or planned are subject
         to OIG follow-up.

AGENCY COMMENTS

         On June 2, 2003, OIG discussed its draft report with agency senior executives who
         generally agreed with the report recommendation. This final report incorporates agency
         comments, where appropriate.



3
        The Division of Accounting and Finance no longer exists. The Division of Financial Services is presently
responsible for commercial payments.




                                                           8
SCOPE/CONTRIBUTORS

    To accomplish the audit objective, OIG evaluated management controls related to the
    agency’s processing of purchase orders from initiation of the requests through invoice
    payment. This work included a review of applicable laws, regulations, NRC policy, and
    interviews with NRC staff (in the Offices of Chief Financial Officer, Administration, and
    Chief Information Officer) to identify pertinent issues. OIG selected a statistical sample of
    134 purchase orders and performed various compliance tests. The audit was performed in
    accordance with generally accepted Government auditing standards and included a review
    of management controls related to the objectives of the audit. OIG conducted the audit of
    purchase order processing from November 2002 through March 2003.

    This audit was conducted by Steven Zane, Team Leader; Kathleen Stetson, Audit
    Manager; and Michael Steinberg, Senior Auditor.

    Attachment: As stated

    cc:    W. Dean, OEDO
           M. Malloy, OEDO
           P. Tressler, OEDO




                                              9
R. McOsker, OCM/RAM
B. Torres, ACMUI
G. Hornberger, ACNW
G. Apostolakis, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
E. Merschoff, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
C. Kelley, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, NSIR
R. Wessman, IRO
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
P. Gwynn, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV




                             10
